HHS/OIG-Audit -"Review of Pharmacy Acquisition Costs for Drugs Reimbursed Under the Medicaid Prescription Drug Program of the West Virginia Department of Health and Human Services,"(A-06-01-00007)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Pharmacy Acquisition Costs for Drugs Reimbursed Under the Medicaid
Prescription Drug Program of the West Virginia Department of Health and Human Services," (A-06-01-00007)
December 31, 2001
Complete
Text of Report is available in PDF format (945 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Most States use average wholesale price (AWP) minus a percentage discount, which
varies by State, as a basis for reimbursing pharmacies for drug prescriptions.  Therefore,
the objective of this review was to develop for the West Virginia Medicaid program
an estimate of the discount below AWP at which pharmacies purchase brand name and
generic drugs.  Our estimate of the overall discount below AWP for the invoice
prices we reviewed was 21.71 percent for brand name drugs and 68.92 percent for
generic drugs.  Our national estimates, included in reports we previously
issued were 21.84 percent and 65.93 percent, respectively.  We recommended
that the West Virginia Department of Health and Human Resources (State Agency)
consider the results of our review as a factor in determining any future changes
to pharmacy reimbursement for Medicaid drugs.  The State Agency stated that
it was considering adjusting the discount of AWP to more correctly reflect the
prices pharmacies are actually paying for prescription drugs.